<html>
<title> - Combating Kleptocracy With the Global Magnitsky Act</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


115th Congress }                            Printed for the use of the                       
                        
 1st Session   }     Commission on Security and Cooperation in Europe
                                             
======================================================================

	                Combating Kleptocracy WIth
	                the Global Magnitsky Act
	                
	                

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                           DECEMBER 13, 2017
                           

                           Briefing of the
          Commission on Security and Cooperation in Europe
------------------------------------------------------------------------
                         Washington: 2018





             Commission on Security and Cooperation in Europe
                        234 Ford House Office Building
                        Washington, DC 205
                           202-225-1901
                        <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6e7e6e684d606c6461236562787e68236a627b">[email&#160;protected]</a>
                        http://www.csce.gov
                         @HelsinkiComm
                         
                         
                         

                    Legislative Branch Commissioners
                    
                    
  
              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	ROGER WICKER, Mississippi,
          Co-Chairman			  Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			SHELDON WHITEHOUSE, Rhode Island
                        
          
                 

               Executive Branch Commissioners
               
               
                    DEPARTMENT OF STATE
                   DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE
                            [II]                  
          




    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.
                                [III] 





                    Combating Kleptocracy With
                     the Global Magnitsky Act


                           December 13, 2017


                                                                    Page
                              PARTICIPANTS


    Paul Massaro, Policy Advisor, Commission for Security and 
Cooperation in Europe                                                   1

    Alex Johnson, Senior Policy Advisor for Europe and Eurasia, Open 
Society Policy Center                                                   3

    Charles Davidson, Executive Director, Kleptocracy Initiative, 
Hudson Institute                                                        5

    Rob Berschinski, Senior Vice President, Human Rights First          7
    
                                  [IV] 
    
    
 
                       Combating Kleptocracy With
                        the Global Magnitsky Act
                        
                              ----------                              

                           December 13, 2017
                           
                           
             Commission on Security and Cooperation in Europe                       
                               Washington, DC



    The briefing was held at 3:08 p.m. in Room 188, Russell Senate 
Office Building, Washington, DC, Paul Massaro, Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Paul Massaro, Policy Advisor, Commission for 
Security and Cooperation in Europe; Alex Johnson, Senior Policy Advisor 
for Europe and Eurasia, Open Society Policy Center; Charles Davidson, 
Executive Director, Kleptocracy Initiative, Hudson Institute; and Rob 
Berschinski, Senior Vice President, Human Rights First.

    Mr. Massaro. Good afternoon, and welcome to this Helsinki 
Commission briefing on ``Combating Kleptocracy with the Global 
Magnitsky Act.'' My name is Paul Massaro, and I am the anticorruption 
policy advisor at the Helsinki Commission.
    This year the commission has been hosting a series of events on 
combating kleptocracy, one of the central threats facing the OSCE 
today. Starting with our event on asset recovery last June, we have 
looked at combating energy corruption, the nature of kleptocracy in 
Russia, the need for incorporation transparency at home, and Ukraine's 
fight against corruption. Panelists at all events have agreed that this 
is a pressing issue, but there are some reasons for optimism. The 
Global Magnitsky Act is one of those reasons.
    The term ``kleptocracy'' describes states where corruption has 
supplanted the system of government. While we often associate 
kleptocracy with states like Russia, it is important to note that there 
are a number of states in the OSCE region that contain severe 
kleptocratic elements. It is also important to note that behind every 
act of grand corruption are individuals, often foreign government 
officials and their accomplices, who trade the well-being of their 
country for personal gain.
    But kleptocracy is not just a problem for states where corruption 
has taken hold. It is also a problem for states where the rule of law 
is respected, like the United States of America. Without the ability to 
stash ill-gotten assets in states where the rule of law is respected, 
there is little reason to steal them. If your money was identified as 
dirty, you could never spend it and it could simply be stolen by 
another thief.
    Lucky for kleptocrats, there is a large corruption services 
industry in the West that is ready and willing to help hide that money 
for a small cut, corroding the rule of law and democracy from the 
inside while sustaining kleptocratic oppression. This oppression comes 
in the form of massive human rights abuses, and disproportionately 
targets those who attempt to expose corruption.
    In kleptocracies, loyalty is rewarded by access to wealth and power 
while whistleblowing is answered with trumped-up legal attacks, 
imprisonment, torture, and sometimes even death. This was the case for 
Sergei Magnitsky, who, after uncovering a massive fraud scheme 
perpetrated by the Russian state, met a tragic end in a Moscow prison. 
His story led to Congress passing and the president enacting the 
Magnitsky Rule of Law Accountability Act in 2012.
    This law established sanctions on those responsible for Magnitsky's 
death, and for other gross human rights violations in Russia against 
whistleblowers and human rights activists. Last year, Congress passed 
an even more extensive version of this legislation, the Global 
Magnitsky Act--which we'll discuss today--which authorizes the 
executive branch to prohibit the worst foreign human rights offenders 
and most corrupt officials operating anywhere in the world from 
entering the United States, and to block their U.S. assets.
    This law is a groundbreaking, modern tool in the counter-
kleptocracy toolbox. While most discussions of combating kleptocracy in 
the United States revolve around domestic reform designed to make 
assets more difficult to hide, or foreign reform abroad in order to 
make assets harder to steal, rarely do we have the opportunity to 
discuss the challenges and opportunities of sanctioning those who are 
engaging in or facilitating gross acts of corruption.
    I am glad to have such a distinguished panel with me today to 
discuss this revolutionary piece of legislation in the fight against 
kleptocracy. Alex Johnson, to my right, is the current senior policy 
advisor for Europe and Eurasia at the Open Society Policy Center, which 
seeks to expand citizen engagement and ensure human rights while 
building transparent and accountable governments around the world. He 
is also a close friend and former colleague at the Helsinki Commission, 
where he served as our representative to the OSCE in Vienna. Alex is an 
expert on the OSCE region and served as special advisor for Russia and 
Ukraine at the Department of Defense between working for us and taking 
his current job.
    Charles Davidson, to my left, is the executive director of the 
Kleptocracy Initiative at the Hudson Institute, which has been in the 
vanguard on combating kleptocracy and produced extensive research and 
reporting on the issue. Charles was the first to the scene among those 
of us fighting kleptocracy and built much of the intellectual 
foundation toward the issue that we take for granted today. He has 
become something of a household name at the commission and is a 
frequent contributor to our work. This will be the third time that he 
is on a commission panel this year. [Laughs.] He previously 
participated in our panel on asset recovery and as a witness in our 
hearing on combating corruption with incorporation transparency.
    Finally, Rob Berschinski is the senior vice president for policy at 
Human Rights First, which pushes for the U.S. Government and business 
community to respect and defend human rights and the rule of law. Rob 
previously served as the Deputy Assistant Secretary of State for 
Democracy, Human Rights, and Labor at the Department of State, and was 
responsible for overseeing human rights policy throughout the OSCE 
region. He is intimately familiar with the Global Magnitsky Act, having 
coordinated the work of a coalition of human rights and anticorruption 
NGOs to develop a list of designees to be targeted under the act, which 
was provided to the administration in the form of a letter and 
accompanying package of materials.
    Thank you all so much for being with us here for this important 
discussion. I would like now to pass the floor to Alex Johnson, who 
will kick us off. Alex.
    Mr. Johnson. Thank you, Paul.
    Our conversation today is particularly timely. On December 10th we 
recognized International Human Rights Day and, just before that, 
International Anti-Corruption Day. Both days are inseparable in my 
view, because government corruption fuels human rights abuses. 
Corruption and kleptocracy enable human rights abusers to generate 
challenges throughout the OSCE region. Additionally, the Commission on 
Security and Cooperation in Europe is a critical player in overcoming 
some of these challenges.
    So I want to thank the U.S. Helsinki Commission for its continued 
leadership in combating kleptocracy in the 57 participating States of 
the OSCE, in addition to the efforts of the political leadership, 
particularly in the OSCE Parliamentary Assembly, and the expert 
contributions, of course, of staff, like Paul, to U.S. delegations at 
countless OSCE proceedings, where they've been truly impactful in 
really advancing principles around democratic governance and countering 
corruption.
    As Paul mentioned, I spent a number of years working on the 
commission staff, and it was the honor of my career. And I now lead 
advocacy for Europe and Eurasia at the Open Society Policy Center, 
where I am engaging quite frequently with many of the victims of 
corruption throughout the region.
    So the passage of the Global Magnitsky Human Rights Accountability 
Act as a part of the 2017 National Defense Authorization Act embodies 
the refinement of smart sanctions against those who seek to do harm, 
while also reflecting a culmination of democratic governance 
commitments in the Helsinki process. Kleptocrats think their power and 
influence can buy them anonymity. Fortunately, the evolution of new 
tools for investigative journalism, including expansive data resources 
and the ubiquity of social media, have shed light on many more cases 
for investigation. International institutions, like the OSCE, must 
capitalize on this emerging era of unprecedented access to information 
to stop corrupt officials and human rights abusers in their tracks.
     I wanted to really just lead with a few recommendations that I 
think are relevant for this particular briefing here today. So, one, 
more cases for investigation. We'll hear more from our distinguished 
colleagues on the panel, who will speak to some of the cases that were 
advanced by civil society and are currently under review by the Trump 
administration to name particular individuals under the Global 
Magnitsky Act. And as it stands, we hope that the Trump administration 
swiftly adjudicates these recommendations, and that there is an 
exploration of even more in subsequent tranches.
    Additionally, other recommendations, too: Engaging European allies 
and partners to adopt national Global Magnitsky measures. Many of you 
know the United Kingdom, Estonia, and most recently Canada have adopted 
measures with some Global Magnitsky components, largely focused on 
Russia, many of which focus on visa bans exclusively. Lithuania and 
other countries are exploring similar action. It's really important 
that members of Congress, and U.S. experts, encourage their European 
interlocutors and partners to adopt measures up to the full scope of 
the Global Magnitsky Act, beyond the visa bans, but also asset freezes 
and other requirements. And they should do that within their national 
parliaments. In addition, a similar action should be taken at a 
European level. The European Union should also pursue its own version 
of a Magnitsky Act, and potentially a Global Magnitsky Act.
    Another key point is global philanthropy and other resources are 
important in sustaining investigations into human rights abusers and 
corrupt officials. Some elected officials have been questioning the 
very notion of global philanthropy and foreign assistance in OSCE 
participating States. It's really important to recognize that private 
philanthropy from across the political spectrum has found common ground 
in advancing democratic governance by supporting civil society actors 
and the independent media to expose corruption. It's really important 
that this continues.
    Now turning to some of the institutional measures with the OSCE, 
it's important that civil society has a stake and a place at the table 
in terms of OSCE proceedings. The OSCE's human dimension implementation 
meeting benefits from robust, expert, and civil society access. The 
similar parallel of the economic and environmental forum process, as 
well as the economic and environmental dimension implementation 
meeting--which is new as of 2011--should benefit from the same level of 
access of outside experts, NGOs, and experts who can really combine 
this expertise on countering corruption.
    I would say my last core recommendation is establishing a thematic 
mission of the OSCE, focused on implementing anticorruption provisions 
of OSCE commitments. There's been an erosion within the OSCE region 
with the closure of a number of field operations, which have long been 
the jewel in the crown, you could say, of OSCE activities, and focused 
on implementing commitments. And some of the mandates of the existing 
field operations have been scaled back. It's really important to 
develop a thematic mission in order to overcome some of the politics 
associated with these field missions and allow an elite unit to operate 
above those politics and address corruption throughout all of the OSCE 
participating States.
    A few more remarks. Just to note a little bit on the history of the 
OSCE and to level-set our conversation here and leave some time for our 
colleagues, who have gathered--the OSCE is really one of the few 
multilateral institutions that bridges human security interests in the 
Northern Hemisphere. As such, it's a venue to evolve and advance 
international norms toward transparent democratic governance. As a 
regional entity, it can expand political will to address problems of 
corruption that are often regional in nature, such as the 2014 exposure 
of the Russian Laundromat scandal, where billions were exposed coming 
from Russia and funneled through Eastern Europe and various banks, and 
then onward to the rest of the world. So it's very important that there 
are regional mechanisms that can address these regional problems.
     I just wanted to mention one particular commitment that's 
important in recent memory that shapes a lot of the activity today in 
the OSCE. In 2012 at the Dublin Ministerial Council, foreign ministers 
from all participating states agreed to a declaration to strengthening 
good governance and combating corruption, money laundering, and 
financing of terrorism.
    So under that mandate, there was substantial activity and really an 
increase of cooperation outside of the OSCE institutions to develop a 
handbook on combating corruption that came out last year. It's an 
important resource that brought in expertise from the United Nations 
Office on Drugs and Crime, the Organization for Economic Cooperation 
and Development, and also the Council of Europe Group of States Against 
Corruption. This handbook on combating corruption is a good place to 
start at looking at how we identify potential individuals who should be 
individuals banned for visas or other asset freezes under provisions of 
the Global Magnitsky Act.
    With that, I will conclude and look forward to having a discussion 
regarding some of the other priorities in the region. But I would say 
that the Global Magnitsky Act is broadly applicable. There are even 
stories that have broken recently with regards to Moldova, to 
increasing challenges in Ukraine where there's potential backsliding 
for the forces and institutions that are moving toward reform for 
corruption. Additionally, there are numerous challenges in central 
Asia, be it in Uzbekistan or Turkmenistan. And I'm happy to discuss 
various cases and other recommendations in that regard during our open 
discussion.
    Thank you so much.
    Mr. Massaro. Absolutely, Alex. Thank you. I couldn't agree more 
that human rights and anticorruption are inseparable. Thank you so much 
for your general recommendations of bringing more cases, having other 
national governments implement Global Magnitsky provisions, and also 
enabling foreign assistance for civil society and other countries, as 
well as your really in-depth OSCE knowledge. I think that that's one 
incredible contribution that you can make to this panel is, having 
worked with the commission and been in Vienna, you know the nuts and 
bolts of the OSCE. A lot of what you just said is related to what we 
were just talking about last week at the Vienna ministerial. We talked 
to a lot of ambassadors and the Secretary General about thematic 
missions. We brought up the idea of anticorruption mission. And I think 
there's a lot of support for something like that. So we'll continue to 
push that, and I hope something like that goes forward.
    I'd like now to hand the floor to Charles Davidson, please.
    Mr. Davidson. Well, thank you, and thank you, Paul, for your 
extremely kind introduction. It's a pleasure to be here with Alex and 
Rob.
    Paul asked me to address the specifics of the Global Magnitsky Act 
before I made some other more general comments. This is sort of a fun 
one, in a way, because this is a bill that one can summarize the 
essential of in just a few words. It gives the U.S. Government--Paul 
will correct me, and others, if I make any mistakes--but it gives our 
government the power to exclude from our territory, in other words visa 
ban, and freeze, or potentially seize, the assets of any non-U.S. 
person whom we deem to be corrupt, who has been a government official. 
And then there's some other qualifiers.
    But that's pretty much it. It also gives us the power to go after 
not just the government official or senior associate of such an 
official, but also anyone who has materially assisted, sponsored, or 
provided financial material or technological support to the government 
official or senior associate who has committed this act that we deemed 
to be corrupt, or acts we deem to be corrupt. So we're not just 
empowered to go after what one might think of as the prime targets of 
this bill, but also the enablers, as we call them, of this corruption. 
So it's a very broad and powerful law.
    In the hands of Rambo, you could really go to town with this thing. 
If we have a president who really wanted to swing this bat, there's a 
lot of assets that could be frozen, lots of apartments in New York and 
Miami, this, that, and the other. And it could be huge. So just its 
existence, of course, is a considerable deterrent.
    Now, we're focusing on kleptocracy today. So let me then, for the 
rest of my remarks, focus exclusively on Global Magnitsky in the anti-
kleptocracy context. When we're talking about kleptocracy, from the 
standpoint of my program at the Hudson Institute, we're not so much 
interested in just kleptocracy and corruption, but really the growth of 
authoritarianism and the decline of freedom and democracy around the 
world. Then we've noted that all these authoritarian regimes, that are 
such a threat to freedom and democracy--well, they happen to be 
kleptocracies. So I'm thinking of Global Magnitsky as being a pro-
freedom act also, not so much just an anti-kleptocracy act. And I like 
to think of it in those broad terms. And this issue of growing 
authoritarianism and declining freedom around the world is absolutely 
critical, as we know. So this is a very important and new tool in our 
arsenal for fighting back against the growth of authoritarianism. Sorry 
if I was a bit redundant there.
    Now, another thing Paul asked, then, to comment on is, well, we 
have special situations. We have countries with whom we have a positive 
relationship--in other words, countries that are not identified as 
rivals, but say a country we're trying to fix that has kleptocratic 
elements--and in those cases, how do we think of the Global Magnitsky 
Act as a positive tool? I would in those cases--and I can't mention any 
names, so this is going to be a bit euphemistic, but to this crowd we 
kind of know who one might be thinking of--I think one characterization 
we could use is thinking of it as political surgery. So Global 
Magnitsky, we're going after one person or a small group of 
individuals, but it's the way the law's written. It's going after an 
individual. So, if we are dealing with a regime that we think has 
serious corruption problems, we can make political judgments. I hate 
the term ``decapitate'' because that sounds kind of violent or 
something, but we can go after what we think are the possible political 
inflection points among the most corrupt elements, the leading 
corrupters in a given country. We can go after the enablers of those 
leading corrupters. You don't need to put everybody in jail. The whole 
idea of criminology is you put one or two people in jail and the other 
people get the idea. I mean, here we're not putting people in jail, but 
we're visa banning and freezing assets.
    For that matter, be it countries we have a positive relationship 
with or not, what we see and what we know is that grand corrupt 
elements, kleptocrats, really like to enjoy the freedoms and the 
pleasures, and especially the rule of law and the asset protection, 
that Europe and the United States and our allies provide. So if we're 
able to leverage, as Alex was referring to, Global Magnitsky so more of 
our allies adopt this, we can have a tool that can be really very 
powerful. And the more political coordination there is with other 
countries, the more powerful this can be at pushing back against 
kleptocracy.
    The last thing I'd like to mention is the whole notion of 
kleptocratic corruption being exported into the West, because this is 
something we've been emphasizing a lot recently. It's an important 
notion, that when people come to the West for asset protection and 
other services and we welcome them, they bring with them their mores, 
their ways of doing things. It's not just money. There's a lot that 
comes with it.
    So let's take in particular a country where we have a positive 
relationship with them. The kleptocratic pollution that's coming in is 
bad for us. Global Magnitsky enables us to counter that. If we have 
specific cases, for that matter, of certain individuals whom we deem to 
be particularly negative within our shores, we can use Global Magnitsky 
as a tool of political surgery to not let them enjoy the fruits of 
freedom and the punch bowl that we have been perhaps too happy to 
provide.
    Thank you.
    Mr. Massaro. Absolutely, Charles. Extremely eloquent, as always. I 
love your terminology: pro-freedom act, political surgery. You know, if 
that's all you were contributing to the discussion it would be enough, 
you know? [Laughter.] But thank you so much. I really appreciate it.
    So we're turning right, to Rob Berschinski. The floor is yours.
    Mr. Berschinski. Thanks, Paul, for having me.
    As Alex mentioned, we are meeting at a particularly timely moment 
right now--not only for the reason he mentioned, but also because, 
while I can't speak on behalf of the administration, signals are that 
the administration is going to release its first tranche of sanctions 
designations within the next week or so. I can say that, working with 
human rights defenders and activists around the world, there's a lot of 
eager anticipation around the Trump administration's first decisions 
under the law.
    Robustly implementing the Global Magnitsky law is seen as crucial 
by activists abroad. Notwithstanding recent rhetoric and policy from 
the administration that, at least in my view, has severely damaged 
America's image as a leader on human rights and in efforts to fight 
corruption, I can assure you from my conversations that many men and 
women laboring under repressive and kleptocratic governments around the 
world still view the United States as a beacon. They view our 
government, empowered by Global Magnitsky, as an actor able to stand up 
for what is right, able to protect the vulnerable, and able to 
challenge those who otherwise act with impunity. So we will soon see 
whether these hopes are well founded.
    Robust implementation of the law is also important for activists 
within the United States. Proponents of the law at home see in Global 
Magnitsky a tool that the U.S. Government can use to shine a bright 
light on murderers, torturers, and rapists, as well as those that steal 
brazenly from their own citizens--and, as my colleagues mentioned, to 
deny these actors travel to the United States and the ability to use 
the proceeds of their ill-gotten gains via our financial system. Many 
of us also see the advocacy around the law as an avenue to accomplish 
some of these effects even without the U.S. Government, acting as NGOs 
even when the U.S. Government doesn't necessarily take action on any 
specific case.
    Recognizing this important potential, shortly after the law was 
passed last year a number of leading, largely but not exclusively U.S.-
based human rights and anticorruption NGOs came together in an effort 
to provide the executive and legislative branches of the U.S. 
Government with recommendations on individuals that we felt warranted 
additional investigation and a look by the U.S. Government for 
potential sanctions under the Global Magnitsky Act. We did this in 
accordance with the law's Section 1263(c)(2), which directs the 
president to, quote, ``consider credible information obtained by other 
countries and nongovernmental organizations that monitor violations of 
human rights.''
    I just want to pause to acknowledge the importance of this 
provision, which serves as a reminder that Congress views the role of 
nongovernmental watchdogs as integral to Global Magnitsky's success. 
For this, to my hosts here at the commission--[laughter]--I'd like to 
offer a note of thanks on behalf of many of my NGO counterparts and 
activists around the world. The law really is something of a model in 
terms of how NGOs, the legislative branch, and the executive branch can 
operate as one in order to achieve U.S. policy aims and advance human 
rights and fight against corruption around the world.
    I also want to briefly highlight the proactive outreach to civil 
society over the course of the year initiated by officials at the 
Departments of State, Justice, and Treasury, as well as members of the 
White House National Security Council staff. I see a few of my former 
State Department colleagues lurking in the back and wanted to give them 
a shout-out. The administration has done what I think is an admirable 
job of consulting with civil society over the course of the year.
    Turning to the process that some of us in civil society undertook 
regarding making sanctions designations recommendations, I want to 
offer four or five thoughts.
    First is that one of Global Magnitsky's greatest strengths--its 
global reach--is in some respects also what makes it complex to 
implement, at least in a maximally coherent way. Unfortunately, gross 
violations of human rights and acts of significant corruption abound 
across the world, as Charles was talking to. One stat I read just this 
morning is that the U.N. estimates that roughly 5 percent of global 
economic activity--so this is a figure that is in the trillions of 
dollars--is lost to either bribes or loss related to skimming off the 
top. In the context of Global Magnitsky, this raises the fundamental 
question of where do we begin.
    Accordingly, in choosing would-be targets, the U.S. Government 
would ideally have in place a process to think through criteria for 
designations that go beyond the fundamental, essential question of has 
the evidentiary threshold to designate someone been met. Additional key 
questions that the U.S. Government could ask itself include: First, 
whether a designation will have impact beyond the specific individual 
or individuals sanctioned, either by deterring others from similar 
conduct, or by sidelining a particular actor or group of actors--and I 
think this is a point that's very relevant to today's conversation; 
and, second, whether a particular designation or set of designations 
would reinforce the idea that the United States views accountability 
either on the human right side or the anticorruption side in a way that 
should be advanced globally, including with respect to even our 
partners and allies, or whether our government is only going to pursue 
these actions in the context of countries with which we have bilateral 
disagreements--again, particularly relevant in the OSCE context.
    So, with these questions in mind, those of us in the advocacy world 
decided early on that we wanted to provide the U.S. Government with a 
list of recommendations that not only involved would-be sanctions cases 
that we felt would have important ramifications, but that were also 
geographically dispersed, mixed between regional powers and smaller 
states, with little distinction between international friends, 
competitors, and enemies. As I mentioned, it remains to be seen whether 
the U.S. Government will adopt the same approach if and when it 
releases this first tranche of designations sometime in the near 
future.
    The second point I want to offer is that Global Magnitsky's high 
evidentiary standard has implications for how civil society makes 
recommendations moving forward. Sanctions are, of course, an 
administrative tool rather than a judicial remedy. They're ultimately 
about policy and behavior modification, not necessarily achieving 
justice--though they have a justice component to them. That said, 
before taking an action as significant as blocking someone's assets, 
the U.S. Government must have confidence that its determination will be 
held up in a court of law if it's challenged. This results--and I would 
say appropriately so--in a high evidentiary standard needing to be met 
before any particular designation is made.
    For those of us working on the outside to expose corrupt schemes, 
what this often means in practice is that only in rare circumstances 
are we actually going to be able to deliver all the information that 
the United States Government might need to make a designation--for 
instance, the quid pro quo of a corrupt act, rather than a description 
of circumstances that the government should then investigate. Except in 
rare cases, activists and investigative journalists may be able to 
point to a compelling pattern of behavior worthy of further 
investigation, but are not necessarily going to be able to produce the 
smoking gun. That's where, with the tools at its disposal, the United 
States Government will need to pick up the case. Nor, I should add, are 
we compelled to do so under the law in whatever we make public.
    Third, and related to both of the above points, activists are still 
thinking through the relative pros and cons of using public naming and 
shaming as a tool under Global Magnitsky, as opposed to making quiet 
recommendations to the U.S. Government. Being public in recommendations 
has pretty obvious upsides. Doing so puts corrupt actors and human 
rights violators on notice that they're being watched. It creates doubt 
in their minds as to whether they'll be able to carry on their acts 
with complete impunity. It raises the potential that foreign 
governments might sideline certain actors viewed as pariahs. It 
certainly provides some element of satisfaction to victims, if not, 
again, actual justice.
    Lastly, those who argue for public recommendations note that the 
audience for such declarations is twofold. It's not just the would-be 
designees or the governments of the countries of which they're citizens 
or where they reside, but also the U.S. Government. What being public 
does is highlight to the U.S. Government that civil society knows that 
these cases are out there and wants the U.S. Government to investigate. 
While the law is clear that the U.S. Government doesn't need to make 
any designations, even if the evidentiary standard is met, at that 
point public declarations from civil society can force the issue around 
political will around designations on behalf of the U.S. Government.
    There are, however, at least two important downsides to public 
naming and shaming that I think are worthy of serious consideration. 
The first of these is the reality that those publicly recommended for 
sanctions by NGOs may avail themselves of the opportunity to move or 
hide their assets prior to actual designations, and we shouldn't 
discount that. Also relevant is the very real potential that figures 
that are often wealthy and quite powerful, and who have also at times 
been known to employ American enablers, will fight back. Human rights 
and anticorruption advocacy at the level of individual naming and 
shaming is a serious business, and the potential for harassment and 
attempted silencing of those engaging in this activity is quite real.
    The same goes for manipulation of recommendations. One difficulty 
in dealing with information and allegations brought forward by certain 
actors, particularly on the corruption side of the law, is that there 
can be a fine line between those with inside information by way of 
being a legitimate whistleblower and those that perhaps were engaged in 
some form of corrupt act, and that's how they came by the information. 
I think we've already seen play out a little bit over the course of 
2017 a little bit of initial discussion by actors that might be in the 
middle of corrupt acts within their countries trying to play out 
through the press finger-pointing against one another.
    This brings me to my last point. Thank you for bearing with me.
    Beyond its worldwide reach, a major innovation behind Global 
Magnitsky is that, as Charles alluded to with that great term 
``political surgery,'' it's a policy scalpel and not a mallet. By 
allowing the U.S. Government to target individuals, the law allows the 
potential for a nuanced policy that signals strong disapproval of 
certain actors and their actions without necessarily suggesting or 
initiating a complete breakdown in bilateral relations between the 
United States and a foreign government.
    An illustrative example of how this dynamic might work in practice 
is one I'll draw on the human rights side of the law, not the 
corruption side. This relates to atrocities that have been in the news 
with regularity recently related to the Burmese Government's attacks on 
its Rohingya minority population. One can use Global Magnitsky 
sanctions on certain military commanders in a way that would sanction 
them and perhaps play a role in sidelining them, while continuing to 
differentiate them from members of Burma's civilian government.
    I can use a historical example to give a sense of how Global 
Magnitsky could be used in a similar way on the corruption side by 
referring to an episode back in 2014 in Hungary. In the fall of that 
year, the U.S. Government applied visa bans on a handful of Hungarian 
businesspeople and government officials implicated in a corruption 
scheme related to misuse of value-added tax reimbursements. In that 
instance, the visa bans were implemented under a separate authority, 
Proclamation 7750, which allows for the suspension of entry of persons 
into the United States ``engaged in or benefiting from corruption.'' 
That action sent, to my mind, an appropriately strong but targeted 
signal to the government of Hungary about how the U.S. Government views 
corrupt acts committed in an absence of accountability, irrespective of 
whether those acts were undertaken by individuals in an allied 
country--again, an OSCE participating State and also a NATO member. 
It's my hope that that example can serve as a model for actions under 
Global Magnitsky moving forward in the OSCE region and beyond.
    Thank you.
    Mr. Massaro. Thank you so much, Rob. And thank you for emphasizing 
both this exchange of information and cooperation between government 
and civil society. To me, that's what the Helsinki Commission is all 
about. I actually just at 12:00 today was at the anticorruption 
advocacy group--a group of 187, I think we are now--civil society 
organizations that come together. I want to hear what every single one 
of them has to say and what all needs to be done.
    It's amazing to me that we are the type of country that puts this 
in legislation, right? [Laughs.] That's who we are, it's part of U.S. 
Code that we reach out to civil society, and that is extraordinary. 
That is not normal in history, and it's amazing that we're here.
    That gets me to that second point of a beacon of hope, because to 
me that's what it's really all about. When we fight kleptocracy, I 
think everyone on this panel would agree--I know Charles would because 
that's what he's all about--is fighting back against this corrosive 
influence that is essentially pushing us to betray our values, to put 
short-term financial gain over ideals, and strive for what we should be 
and what we could be, which again is that beacon of hope for the rest 
of the world.
    So, with that in mind, I'd like to move to a point you made about 
U.S. enablers. I think that U.S. enablers are one of the most 
problematic elements of the kleptocratic equation. There is no 
kleptocracy without us, you know? [Laughs.] Last week, or earlier this 
week actually--all the time is flowing together--I met with a man named 
Paul Ostling. He says he's whistleblower. He blew the whistle on 
Brunswick Rail, which is a Russian company. He saw them engaging in 
financial fraud. Then he moved back to the United States. He is now 
under extensive lawsuits by the U.S. court system, by companies hired 
by Russian interests.
    He's telling me, ``I'm almost bankrupt. I don't know what I'm going 
to do. I don't know how to defend myself under this.'' I think that 
that sort of thing happens quite often. I wonder, when we talk about 
facilitators, when we talk about U.S. court systems and being used to 
facilitate kleptocratic interests or law firms, creating shell 
companies, money laundering, and things like that, to what extent can 
this law be used to combat that element of it?
    Rob, if you'd like to take the first hit at that, and we can move 
to the right.
    Mr. Berschinski. So on the final part of your question, a lot of 
that is beyond my area of expertise, and I would defer to Charles, who 
may have more to say. What I will say is that Global Magnitsky is not 
sufficient to the task at hand. What it does is, it tells foreign 
actors that their ill-gotten gains are not welcome in the U.S. 
financial system if they are designated. I mentioned in my remarks this 
question is a completely valid and difficult question to reconcile, one 
that we're still working through in civil society, of do we want to 
maximally name and shame in order to put corrupt actors on notice, with 
the potential downside that they would move their money?
    I think there's a great interest in actually blocking assets, in 
freezing assets. But at the same time, I would suggest that probably 
the strongest argument one could make that the benefits of publicly 
outing individuals, even at the risk that they have time to move their 
money before the U.S. Government actually sanctions them, is that at 
the end of the day what's more powerful than freezing the assets is the 
moral message that the U.S. financial system will not be used for the 
proceeds of kleptocracy. If actors that feel that they are going to 
ultimately be sanctioned take the initiative to move their money out of 
a rule-of-law-based system and back into a lawless system, that's on 
them.
    There's a reason why whether you are Russian or Ukrainian or 
Azerbaijani or Central Asian, you want to move your money into the U.S. 
financial system because we enjoy the rule of law. We should not allow 
those actors in the system. So that's point one. And just quickly, that 
said, to your point, Paul, this law is necessary, but not in the least 
bit sufficient. As we know through the Panama Papers and other massive 
exposes by investigative journalists, for all of what I just said the 
U.S. financial system is--to say nothing of New York real estate, where 
I live--a direct beneficiary of much of this money. There is little to 
nothing under Global Magnitsky that is going to change that.
    Mr. Massaro. Well, that's very helpful. Let me follow up with, 
could you name and shame a law firm? Could you name and shame a bank? 
Could you name and shame actors like that--not necessarily corrupt 
officials?
    Mr. Berschinski. So journalists and anticorruption activists, the 
tools we have at our disposal are essentially our credibility, right? 
At the end of the day, it's the U.S. Government that designates. I 
represent a human rights organization, not an organization that focuses 
on corruption narrowly defined. But when you're talking about groups 
like Global Witness or Transparency International or the consortiums of 
journalists that have put out these explosive stories in recent months, 
they need to get their facts right. That's the most important thing. 
But to the extent that there are indisputable facts and information, I 
think that sunlight is a great disinfectant.
    Mr. Massaro. Excellent. Charles, do you have anything to say to 
that?
    Mr. Davidson. Well, I don't have anything to say, but I'm going to 
try to say just a little something there. Just highlighting this part 
of the act that I mentioned earlier, where we are able to target so-
called enablers, people who are not the direct perpetrators but who 
have helped them. I think they could be anywhere, these enablers, the 
way I read the act. Is that correct, Paul? I think so.
    So you could think of the plight of this gentleman who is being 
sued by people who he's blown the whistle on and all of that. Given the 
NGO component in the actual process of identification that Global 
Magnitsky gives, one could think about the NGO community that is 
respected by our government mobilizing in a case like that. I don't 
know if the Helsinki Commission can make discreet introductions or 
indiscreet, I have no idea. But one could try to turn the forces that 
way.
    All we'd need is one case like that. Really, one case and it would 
completely change the mentality, the more major the law firm the 
better. In related areas, there was a major law firm that was called 
out recently. And the political tide really is kind of turning. So now 
would be a good time. If we could have one case like that, it would be 
great.
    Mr. Massaro. Discreet or indiscreetly. [Laughter.] Got it.
    Alex?
    Mr. Johnson. On this particular question I really support what my 
colleagues have already said. I think it's important to recognize--and 
I've tried to emphasize this in my opening remarks--that corruption is 
everywhere. It's here in the United States. It's throughout the 
entirety of the OSCE region. So looking at empowering civil society and 
other multinational institutions with mechanisms to hold even the 
United States to account in its role in enabling some of this 
corruption, it's very important.
    Mr. Massaro. Excellent. Well, thank you so much. I'll ask one more 
question, then we'll open up questions to the audience. So please start 
brainstorming.
    I wanted to bring up a piece that I read recently by one Karina 
Orlova, who I believe you know well, that discussed sanctioning Putin's 
propagandists, the idea that you could go after individuals who had 
been essentially putting up enormous amounts of disinformation or lies. 
The base of the question comes down to this: Could you foresee 
sanctioning individuals that are spreading disinformation and lies, 
under this act? To anyone who'd like to take it.
    Mr. Berschinski. I'll start on that. First, it's worth remembering 
that the two prongs of the Global Magnitsky Act relate to gross 
violations of human rights and acts of significant corruption. So, as I 
understand it--and I am familiar with the article if not all the 
particulars--Global Magnitsky would not apply. Gross violations of 
human rights as interpreted by the U.S. Government essentially relate 
to extrajudicial killing, torture, murder, rape. While acts of 
significant corruption are still somewhat yet to be determined, at 
least as relates to the act, because it hasn't been implemented yet and 
the Russian version of the law is slightly different than the global 
version of the law. But nevertheless, it doesn't sound like any of 
those particular acts would be captured under Global Magnitsky.
    I should also add that as a representative of a human rights 
organization, I think we need to be very careful as we approach 
questions of sanctions or any sort of policy activities that could be 
seen as retribution against speech. And that is no defense whatsoever 
of disinformation, which I personally feel is a cancer eating at the 
soul of democracy right now. But we just need to tread very carefully 
in this space, lest we provide fodder to autocratic governments out 
there that will use any excuse in order to clamp down even further than 
they have on free speech.
    Mr. Massaro. Anybody else like to take that? Yeah, if you'd like 
to.
    Mr. Johnson. Well, I agree with Rob, full stop. I think this does 
not apply in a case like that, that the scope of the law is too 
limited. To reiterate Rob's point regarding how this is not sufficient 
to the task at hand, that would have to be carefully treaded, that when 
you start to regulate speech and proceed in that particular direction. 
As it stands, there are so many cases that could be adjudicated under 
the current provisions.
    I didn't have an opportunity to mention it during my opening 
statement, but just earlier this week the Organized Crime and 
Corruption Reporting Project broke a story about questionable financing 
of an apartment and expenses for a judge's daughter in London. This is 
kind of a pattern and a case of a number of officials from throughout 
the OSCE region who have children studying in Western Europe and other 
places where there are so many legitimate cases even within this narrow 
framework that we should be pursuing and daylighting and supporting the 
capacity to bring to bear, before we even, I would say, touch going 
into some of these more problematic spaces.
    Mr. Massaro. Definitely. Thank you, Alex.
    So questions, please. No questions? Orest.
    Questioner. Orest Deychakiwsky, formerly with the Helsinki 
Commission staff, now a board member with the U.S.-Ukraine Foundation.
    Has your coalition, Rob, given thought in terms of the mix between 
egregious human rights violators and corruption activists? Or do you 
just kind of go wherever the evidence leads you?
    Thanks.
    Mr. Berschinski. Thanks. That's a good question. In this initial 
round, frankly, the group of NGOs that decided to come together, we 
were basically figuring this out as we went along. It's a process that 
I expect civil society to improve upon as the years go by, in the same 
way that, frankly, I'm reasonably hopeful that the U.S. Government will 
come out with meaningful sanctions designations in the week or so 
ahead. But I also expect that those designations will become more 
impactful as more years go by.
    As I mentioned in my prepared remarks, Global Magnitsky is--
[laughs]--incredibly powerful, but it's so expansive that it's really 
hard to wrap your head around. [Background noise.] [Laughter.]
    And we wrestled with that fact as different human rights and 
anticorruption NGOs got together to discuss what we ended up putting 
together over the course of the year. What we ended up with were a 
ratio of roughly two-to-one gross violations of human rights cases to 
anticorruption cases.
    That was not for any kind of ideal reason. It was mainly that as we 
sought to produce recommendations around cases that had a pretty solid 
evidentiary basis to hand over to the U.S. Government, really torture 
cases are much easier to show than almost anything else. Why is that? 
It's because often the victims can personally identify their 
perpetrators and/or there's a well-known, well-documented body of 
evidence that shows extensive violations, where you can show a command 
responsibility such that we could recommend that somebody be 
designated, not just the guy that's handling the baton in a particular 
interrogation room, but his boss and his boss's boss.
    As I mentioned in my prepared remarks, much harder to do on 
corruption. That's not to say that, again, some of the allegations that 
have been put forward, particularly by these consortiums of 
investigative reporters, aren't very compelling. I find that they are. 
But if the standard that the U.S. Government needs in order to survive 
any legal challenges is you really have to show person X being handed 
the cash in exchange for a non-competitive bid for an extractive 
service, or whatever the quid pro quo is, that is much harder to 
document. So we really are going to wrestle with that moving forward, 
and I would expect that the U.S. Government will as well.
    Mr. Massaro. Alright.
    Questioner. Yes, Mike Dziedzic from George Mason University.
    Really interested in the aspect of the law that allows NGOs to 
provide information, and stipulates the government will listen. You 
mentioned your criterion, but I wanted to ask you a little bit more 
about that because it seems to be fixated on individuals. But it's 
really networks and governments, regimes that are involved. So in at 
least the first cut you took, do you look at not just the individuals 
but, for example, in South Sudan--if you were trying to prevent 
genocide in South Sudan, you'd want to do more than just go after Salva 
Kiir. Is that a way in which you approach this problem?
    The second question is, what needs to be done to make your input 
more effective in terms of the receptivity, or just in terms of the 
relationship that you have with the governments, so that the 
information that you're generating can be more valuable and more 
usable?
    Mr. Berschinski. Thanks for that. Just on the second question 
first, as I mentioned in my prepared remarks, I give great kudos to the 
administration for its receptivity. They were figuring out how to 
implement this law at the same time, essentially, the NGOs that have 
been focused on it were. And they have reached out both formally and 
informally--formal roundtables asking, soliciting input, and then 
plenty of informal conversations. So I don't have much at the level of 
just kind of generic receptivity to add. I think that the dialogue is 
there.
    I think there's infinite potential for common databases, 
information sharing platforms. And that's having spent the majority of 
my career thus far on the government side of the table. That's never 
going to be anything where the U.S. Government can or, frankly, should, 
for that matter, rely solely on information provided even by the most 
credible organizations. Of course, the U.S. Government is going to need 
to independently verify everything they do. And that's really important 
to state. But to the extent that we, in civil society, moving forward 
can formalize our process around coming up with just data management 
tools, I think that's really an area that's ripe for additional 
exploration and innovation moving forward.
    On your point on the networking, that's certainly true with respect 
to gross violations of human rights, and couldn't be more true on the 
corruption side. Of course, it doesn't mean much if you are just 
designating a lone actor. I think that the groups that were involved in 
our process tried as best they could to recommend individuals that we 
felt were emblematic of larger problems within a country. So the head 
of an internal security service known for systemic torture, let's say. 
But you're right, if you really want to affect certain policy outcomes, 
you're going to be able to do it via one-offs.
    Mr. Massaro. Please, Alex.
    Mr. Johnson. On the receptivity note, I would just want to expand 
on this infinite potential that Rob had mentioned. It's important that 
members of Congress are engaged in the process as well. Following the 
efforts by civil society and in conjunction with it, a number of 
members of Congress sent their own letters identifying key individuals 
that they encountered. That was an important part of engaging in this 
dialogue with the administration. So I would call on members of 
Congress to remain engaged.
    Through their engagement with numerous interlocutors, their 
involvement with bodies like the OSCE Parliamentary Assembly, which we 
did not have a chance to discuss further, there's an opportunity to 
gather a lot of information that is useful to identify cases and 
potential individuals that could be sanctioned under Global Magnitsky 
provisions.
    Mr. Massaro. Please. You're going to have to come all the way up to 
the mic.
    Questioner. Tanja Nyberg, Magnitsky Act Initiative.
    I would like to speak about the example of Alexander Bastrykin, the 
head of Russia's Investigative Committee, who is on the Magnitsky list 
at the moment. I would say that he's continued doing what he does, and 
recently he orchestrated the arrest of the civil staff of Alexander 
Navalny's presidential campaign. And he's continued to do it. But what 
is a positive is that he's not able to come here to the States, buy 
property in Florida, and so on. It's just an example of this.
    Thank you.
    Mr. Massaro. Thank you. Any other questions?
    Alright, I'd like to ask another one then. We've talked a lot about 
the way that the sanctions had worked, but what would an appropriate 
global balance look like? You emphasized, Rob, that one of the issues 
about it is that it's global. It's one of the powers about it. But what 
should be the philosophy behind going after 5 people in Latin America, 
10 people in Europe, 5 people in Africa? Do we need the exact same 
number from each region?
    One thing I often run into in anticorruption work is how 
holistically criminals operate. There is no specialization in the 
criminal world. Yet, for us, we see regions and jurisdiction and all 
sorts of other stuff that stops us from effectively looking at this. I 
could entirely imagine that we run into an area where we say, yeah, we 
need five from this region, five from this region in order to put it 
on. So what is the appropriate philosophy? What is the appropriate 
argument structure to create the most effective list?
    Mr. Berschinski. Good question. I don't think that there's probably 
an ideal here. But to speak in generalities, I come back to the 
question that was asked. I think the right question to ask is what is 
the impact, right? This isn't a matter of numbers. I can imagine an 
initial tranche of sanctions from the U.S. Government that has less 
impact, but many more names on it than I can imagine that being one 
potential. I imagine just as equally a list with fewer names but that, 
frankly, has more impact, on the basis of who those people are and the 
message that their designation sends. So I don't think we should get 
wrapped around the axle on numbers. I think that the right metric is 
quality and not quantity.
    Then in terms of regional breakout, again, there are two. I think 
flexibility is the right watch word. Part of what the NGO consortium 
tried to signal through our communications with the U.S. Government was 
that we will be disappointed if the way the administration uses this 
tool is to go after simply those countries that one might expect. 
That's not to say that, for instance, on the human rights side of the 
law certain countries don't violate every obligation they've signed up 
to under international law and are certainly deserving in terms of the 
harm they inflict on their citizenry. But if there's a list that kind 
of calls out the usual suspects, we feel like the law isn't being used 
to its full
potential.
    Certainly, the same goes on the corruption side. I think it's worth 
reminding ourselves as we think about the OSCE region that the law is 
intended for environments in which criminals enjoy impunity. As Tanja 
was getting at with her comment, it's not perfect. A guy like Mr. 
Bastrykin is still going to do what he does. Global Magnitsky is no 
substitute for real judicial accountability. It's the minimum that can 
be done. And in countries in which there is real judicial 
accountability, we should be urging our counterparts to prosecute 
criminals through their judicial systems. This act is kind of a 
failsafe for those countries where the government simply isn't going to 
do that. That's where it can be most useful. And so hopefully that will 
guide the U.S. Government in its designations.
    Then just a last point that's somewhat implicated by your 
question--we were also a little bit concerned that the recommendations 
coming from civil society, if there weren't some attempt, at least, at 
organization, would simply reflect which organizations get fired up 
about making recommendations, with no real rhyme or reason. So one 
could imagine a very well-meaning effort on behalf of an NGO that 
follows corruption or gross violations of human rights dealing with one 
specific country coming out with 10 really solid recommendations. More 
power to them, but we didn't want kind of the landscape to be dominated 
by what's essentially serendipity. Our sense is that we can be of most 
value to the U.S. Government if groups come together and not limit 
themselves, but adjudicate amongst themselves, to try and approach the 
problem as holistically as possible.
    Mr. Massaro. Great. Anyone else want to comment on it? Alex, maybe?
    Mr. Johnson. Yes, I just want to reiterate the point that these 
provisions should be as broadly applicable in our partners, as well as 
countries where there may be bilateral tension. It's really a shame and 
a challenge that a number of assets still are parked in some of these 
jurisdictions where there are robust judicial processes whereby they 
can be pursued. But I think it is still important to identify some of 
the corrupt officials who operate in those spaces. We should not be 
reticent about identifying those countries and naming officials from 
there.
    Mr. Massaro. So, I have another question. That is, we have 
emphasized many times during this discussion that the Global Magnitsky 
Act is necessary, but not sufficient. So with this new idea that 
essentially started with the original Magnitsky Act that, oh yeah, we 
have the financial system, and we can go after these human rights 
violators, corrupt individuals--what else needs to be done? What is the 
next step on this? So let's enter a world where Global Magnitsky is 
applied in a really good way, to the standards that everyone on this 
panel would like to see. What is the next step after that? Please.
    Mr. Johnson. I mentioned briefly this handbook on corruption that 
brought together a number of international institutions. I think one of 
the next steps after the broad application of Global Magnitsky, the 
naming of a number of officials, and potentially the adoption of 
similar measures throughout the OSCE region. It's important to have 
robust cooperation between law enforcement. So utilizing these 
international institutions and other mechanisms to bring together the 
experts that then can pursue and investigate these particular cases. 
There needs to be more connective tissue between law enforcement and 
mechanisms for exchange that themselves aren't subject to potential 
corruption.
    Mr. Massaro. Anyone else like to comment?
    Mr. Berschinski. So I'll just jump in on that. This comes back to 
what we were discussing earlier, is it's worth keeping in mind Global 
Magnitsky only relates to sanctions on non-U.S. persons. Coming back to 
what you, Paul, mentioned at the outset, a huge portion of the issue is 
something that we, within the United States, need to tackle. This is 
about new laws around registries for beneficial ownership.
    I was just reading today that the House Financial Services 
Committee here on, what I understand was a more or less party line 
vote, is moving to rescind an element of Dodd-Frank that's a major 
anticorruption provision related to the extractives industry--so moving 
actively in the wrong direction. So it's all well and good. And I 
firmly believe in laws like Global Magnitsky in terms of calling out 
and penalizing corrupt actors abroad. But we need to be taking a very 
close look at our own house, because we are truly, all of us, enablers 
of a lot of this activity.
    Mr. Massaro. Do you want to make any comments, Charles? Can I force 
you to, on that?
    Mr. Davidson. Well, I could underscore that point, because Rob just 
mentioned our role as enablers. And Paul made a big deal of that in his 
introduction and in further remarks. So my program has taken the 
position that that is the elephant in the room, and that everything 
else is--I can't use the word here--if we don't tackle that. So I think 
that's an issue, the so-called enabler issue. Maybe we'll come up with 
some other diction for it at some point. We'll see. But that's really 
the elephant in the room. The Global Magnitsky and what we're going to 
experience as we try to use it, it may highlight that more and more. 
Its existence and attempts to use it may, therefore, help us with some 
of the ideas and legislation policies that we think should go through.
    Mr. Massaro. Great. Yes, please.
    Questioner. Hi. My name is Joseph. I'm going to go with Joseph, 
actually. I'm a Turkish lawyer.
    I fled in the United States about a year ago. I was a quite wealthy 
lawyer, and a well-known one, in my area of expertise. And yet, I had 
to leave my country, all my belongings, everything. I start a new life 
here as homeless, and then--[inaudible]. I could manage to take my 
family with me, too, after I came here.
    So I'm working. In my spare time, I'm trying to do something for 
the people who have been purged in my country. Half of the judicial 
system--I mean, prosecutors, judges--have been fired from their work. 
And then most of them, thousands, are in jail. And police officers, 
army, more than half of these administrations are emptied with false 
accusations. And it is quite difficult to find a lawyer at the moment, 
because if a prosecutor somehow doesn't like the lawyer's questions or 
the judge's, he may end up being in jail right after the court session, 
even during the session.
    There are many judges and prosecutors who are being detained during 
the trial. He was a judge two seconds ago, and then he's jailed. There 
is just one word: Enough. There are hotlines about people who are so-
called terrorists in the eyes of the government. And then even though 
you are a professor, doctor, or lawyer, you don't have any illegal 
things, even a traffic ticket, and yet, at that moment you are declared 
a terrorist.
    So what I am trying to say is under these circumstances, is it 
really so difficult to find evidence? Let me give you some information 
about the detention. Technically, the maximum time for the detention is 
24 hours. Let's say if it is a terrorist group, it should be 48 hours. 
It was. Now it is 30 days of detention time. And after 30 days, you can 
leave the jail, but police officers can take you back to the detention 
center again. There is no time limit.
    And you can imagine that there is no control of torture whatsoever. 
There are tons of people who are so-called suicidal during the 
detention or in the jails. There are tons of people who are kidnapped. 
There is actual video surveillance footage. And prosecutors don't even 
take any applications about it. So under these circumstances, do you 
have any idea what can we do in order to obtain evidence?
    Because without evidence, I have to try to create maybe twenty 
applications regarding to the Global Magnitsky. But, I'm really having 
difficulties to convince the people whose family members are tortured--
I can't even convince them. Let's say I convince them to tell the 
truth. I can't find the evidence. So please help me out with this. 
Thank you.
    Mr. Massaro. Do you want to take that on, Rob?
    Mr. Berschinski. Thanks. First of all, let me just thank you for 
your bravery and just give you my condolences. That's an absolutely 
heartbreaking story you tell personally, and one that many of us that 
are familiar with events going on in Turkey, unfortunately, I know very 
well. And it is a heartbreaking situation.
    As relates to the Global Magnitsky Act, what you correctly identify 
is one of the limitations of the act as a tool for the U.S. Government. 
In order for the government to designate any individual or group of 
individuals, a certain evidentiary standard has to be met. As I 
mentioned in my remarks, that bar is very high, as I understand it. Not 
only that, sir, you mentioned torture. That is considered by the U.S. 
Government a gross violation of human rights.
    Unfortunately, what isn't captured under the law, under the 
definition of gross violations that the U.S. Government uses to 
understand the law, political imprisonments, lack of due process, all 
the other problems that you mentioned aren't captured at all. So 
activists that come to my organization and other human rights 
organizations tell stories that can be extremely well documented of 
journalists, human rights defenders, lawyers who are imprisoned simply 
on behalf of the work that they do. But unfortunately, the law is 
written in such a way that if they are not tortured or murdered or 
raped, that doesn't qualify.
    So, Paul, coming back to your question about where might we go 
moving forward, the term, from a legal perspective, ``gross violations 
of human rights,'' captures only a small subset of internationally 
recognized human rights. That might be an area for future discussion 
around future legislation. To your point, sir, on documentation, this 
is difficult. The best I can say is, if you are in touch with 
individual victims who have come out of prison, who were tortured, who 
are able to provide firsthand accounts and talk about conditions and, 
ideally, even name names, know who their abusers are, there are groups, 
like mine, that would be interested in speaking with them.
    As I've mentioned before, this is not the ideal form of justice. 
It's only a small tool in the grand scheme of things. But it's better 
than nothing. We have in this initial tranche of recommendations that 
we gave to the U.S. Government taken cases from other countries in 
which torture in the detention system is rife. On the basis of only one 
or two firsthand accounts, combined those with well documented, 
credible information about systemic problems, and put those together 
that makes a recommendation for higher-level people within the 
structure to be sanctioned, under a theory of command responsibility.
    So an idea that it's--again, not the low-level torturer who no 
one's ever heard of, who has no assets to freeze, who's not going to 
travel to the United States anyway, but rather the head of that prison 
or the city police chief, or the head of the internal security service. 
So we can take individual cases and try and make them bigger than what 
they are. But it does take a few people who are both willing to speak 
up and have the requisite information. And I recognize how hard that is 
to come by.
    The last thing I'll say is those people don't need to necessarily 
go public. We would welcome information that can be held privately, 
because we recognize that in many situations governments are willing 
and able to exact retribution on both of the victims, their family 
members, their communities, and so on. So we can work very quietly, if 
need be.
    Mr. Massaro. Great. Thanks, Rob.
    Alex, please.
    Mr. Johnson. I want to echo Rob's thoughts, particularly on the 
personal challenges that you're facing. And maybe offer something a 
little beyond the scope of Global Magnitsky here to give you a 
methodology around gathering evidence. What comes to mind in the OSCE 
context is, going back to 2002, the Novemberists in Turkmenistan and 
the disappeared. So, since 2002, there have been 112 confirmed cases of 
individuals who are currently detained and a campaign called Prove They 
Are Alive has been really instrumental in terms of documenting the 
detainment of those individuals, the new detainments that have occurred 
since then, and finding creative ways to ensure that they are not 
forgotten and to tell that story.
    While it is our hope, particularly in the context that you 
mentioned, that it doesn't reach a circumstance that reaches many years 
of indefinite detainment, it's important to look at some of these 
examples within the OSCE region. In that particular case, the OSCE 
Moscow Mechanism was invoked, and actually generated an investigative 
mission where there was a rapporteur who went and prepared a report on 
this particular acute case of a number of detainments. So there might 
be international mechanisms that you could also similarly gather the 
experts together and invoke action.
    Mr. Massaro. Well, we've come to the end of our time. Thank you so 
much to our distinguished panel here, and to everyone in the audience, 
especially those of you who asked questions. Really appreciate that. 
We'll close the briefing there. [Applause.]
    [Whereupon, at 4:29 p.m., the briefing ended.]


            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
